  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


 THE UNIVERSITY TEACHING HOSPITAL
     GENERALLY MANAGED THE
  PRESIDENT’S EMERGENCY PLAN FOR
    AIDS RELIEF FUNDS AND MET
PROGRAM GOALS IN ACCORDANCE WITH
       AWARD REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                         March 2014
                                                        A-04-13-04005
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

 The University Teaching Hospital generally managed the President’s Emergency Plan for
 AIDS Relief funds and met program goals in accordance with award requirements.
 However, the Hospital did not follow its policies and procedures with 11 of the 39 financial
 transactions tested and did not have adequate policies and procedures to ensure fully
 supported and complete progress reporting.

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). We selected the University Teaching Hospital (the Hospital) for review.

The objective of our review was to determine whether the Hospital managed PEPFAR funds and
met program goals in accordance with the award requirements.

BACKGROUND

Through a 5-year cooperative agreement (grant number 5U2GPS001932), CDC awarded
PEPFAR funds totaling $4,938,673 to the Hospital for the budget period September 30, 2010,
through September 29, 2011.

The Hospital’s mission is to build on its national mandate to offer expert tertiary healthcare, to
train healthcare workers, and to conduct research. The Hospital entered into a cooperative
agreement with CDC to enhance Zambia’s ability to respond to the HIV/AIDS epidemic.
Specifically, the goals of the cooperative agreement were to strengthen the Hospital’s capacity
to:

    •   develop a tertiary-level hospital with the capacity to offer a broad range of adult and
        pediatric HIV/AIDS prevention, care, and treatment activities that are ongoing through
        PEPFAR funds from the past 3 to 5 years;

    •   develop a center for quality capacity building in strategic information activities, provide
        critical support to information systems, and build sustainable monitoring and evaluation
        capacity for HIV/AIDS in Zambia; and



Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                    i
    •   support a program that uses essential information from sentinel surveillance, national
        health surveys, clinical information systems, and targeted evaluations to improve quality
        of care.

WHAT WE FOUND

The Hospital generally managed PEPFAR funds and met program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $1,054,011 of $1,067,565 reviewed was allowable, but $13,554 was potentially
unallowable because the Hospital paid value-added taxes (VAT) on purchases.

In addition, the Hospital did not always follow its policies and procedures. For 11 of the 39
financial transactions tested:

    •   5 transactions totaling $661,414 were paid without approved payment vouchers and

    •   6 transactions totaling $61,356 were recorded to the incorrect expense account in the
        general ledger.

Our program management review showed that the Hospital did not submit an annual progress
report to CDC as required by Federal regulations and the Notice of Award. The Hospital did,
however, submit an annual program results report covering October 1, 2010, through
September 30, 2011, that reported on selected PEPFAR activities as required by the Office of the
U.S. Global AIDS Coordinator (OGAC). However, the program results report did not show
progress on 8 of the Hospital’s 21 goals included in its approved cooperative agreement.
Furthermore, of the 13 goals on which the Hospital reported, 5 were supported by
documentation, but 8 were only partially supported.

These errors occurred because the Hospital did not have adequate policies and procedures.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   work with CDC to resolve whether the $13,554 of VAT was an allowable expenditure
        under the cooperative agreement;

    •   work with the Zambian government for VAT exemption and refund of VAT
        disbursements; and

    •   enhance its internal controls by updating its policies and procedures to include detailed
        steps to account for and report PEPFAR funds, not limited to but including;

            o recording and approving payments for PEPFAR expenditures;




Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                  ii
            o submitting annual progress reports, in addition to the annual program results
              reports, in a timely manner;

            o maintaining adequate supporting documentation for goals reported in the annual
              progress report; and

            o maintaining backups of electronic databases used to calculate and track
              quantitative amounts to support “point-in-time” progress reported.

UNIVERSITY TEACHING HOSPITAL COMMENTS AND OUR RESPONSE

In comments on our draft report, Hospital officials generally concurred with our
recommendations and described the actions they had taken to address them. However, in
response to our recommendation to work with CDC to resolve whether the $13,554 of VAT was
an allowable expenditure, Hospital officials said that they had repaid the $13,554 subsequent to
our fieldwork. The officials said that in August 2013, OGAC imposed a penalty on the Hospital
for paying VAT expenses with PEPFAR funds and reduced its funds by 200 percent of the
cooperative agreement’s year 5 funding, which included the $13,554.

After reviewing the Hospital’s additional documentation, we were unable to verify that the
$13,554 of VAT was included in an FY 2013 reduction of awarded funds and repaid to the U.S.
Treasury Department. Therefore, we continue to recommend that the Hospital work with CDC
to resolve this issue.




Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                             iii
                                                     TABLE OF CONTENTS


INTRODUCTION ........................................................................................................................ 1

          Why We Did This Review ................................................................................................ 1

          Objective ........................................................................................................................... 1

          Background ....................................................................................................................... 1
                Centers for Disease Control and Prevention ......................................................... 1
                University Teaching Hospital ............................................................................... 2

          How We Conducted This Review..................................................................................... 3

FINDINGS             ............................................................................................................................... 3

          Financial Management ...................................................................................................... 4
                 Expenditures for Value-Added Tax Are Potentially Unallowable ...................... 4
                 Financial Transactions Were Not Always Approved or Recorded Accurately ... 4

          Program Management ....................................................................................................... 5
                Hospital Did Not Submit Annual Progress Report to CDC.................................. 5
                Some Cooperative Agreement Goals Not Reported or Partially Supported ......... 5

          Inadequate Policies and Procedures .................................................................................. 6

RECOMMENDATIONS .............................................................................................................. 6

UNIVERSITY TEACHING HOSPITAL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE .................................................................. 7

          University Teaching Hospital Comments ........................................................................ 7

          Office of Inspector General Response ............................................................................. 7

APPENDIXES

          A: Related Office of Inspector General Reports .............................................................. 8

          B: Audit Scope and Methodology.................................................................................... 9

          C: Federal Requirements................................................................................................ 11

          D: University Teaching Hospital Comments ................................................................ 13



Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                                                                       iv
                                                 INTRODUCTION

WHY WE DID THIS REVIEW

The Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the Act) authorized
$48 billion in funding for the President’s Emergency Plan for AIDS Relief (PEPFAR) program
for the 5-year period beginning October 1, 2008, to assist foreign countries in combating
HIV/AIDS, tuberculosis, and malaria.

The Act requires the Department of Health and Human Services (HHS), Office of Inspector
General (OIG), among others, to provide oversight of the programs implemented under the Act,
including PEPFAR. To meet this requirement, HHS OIG has conducted a series of audits of
organizations receiving PEPFAR funds from HHS, Centers for Disease Control and Prevention
(CDC). 1

We selected the University Teaching Hospital (the Hospital) for review.

OBJECTIVE

Our objective was to determine whether the Hospital managed PEPFAR funds and met program
goals in accordance with the award requirements.

BACKGROUND

Centers for Disease Control and Prevention

The Act gives CDC a leadership role in several key areas of research and evaluation in
implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other public health partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

For fiscal year (FY) 2010, CDC obligated 2 PEPFAR funds totaling $1.1 billion. CDC awarded
these PEPFAR funds through cooperative agreements, which it uses in lieu of grants when it
anticipates the Federal Government’s substantial involvement with recipients in accomplishing




1
    Appendix A contains a list of OIG related reports.
2
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives 1.02, the highest level of policy
within HHS that governs grants.


Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                                   1
the objectives of the agreements. 3 In response to a Funding Opportunity Announcement (FOA), 4
CDC awarded the Hospital grant number 5U2GPS001932 through a cooperative agreement for
the project period September 30, 2009, through September 29, 2014.

University Teaching Hospital

The Hospital’s mission is to build on its national mandate to offer expert tertiary healthcare, 5 to
train healthcare workers, and to conduct research. The Hospital entered into a cooperative
agreement with CDC to enhance Zambia’s ability to respond to the HIV/AIDS epidemic.
Specifically, the goals of the cooperative agreement were to strengthen the Hospital’s capacity
to:

       •   develop a tertiary-level hospital with the capacity to offer a broad range of adult and
           pediatric HIV/AIDS prevention, care, and treatment activities that are ongoing through
           PEPFAR funds from the past 3 to 5 years;

       •   develop a center for quality capacity building 6 in strategic information activities, 7 provide
           critical support to information systems, and build sustainable monitoring and evaluation
           capacity for HIV/AIDS in Zambia; and

       •   support a program that uses essential information from sentinel surveillance, 8 national
           health surveys, clinical information systems, and targeted evaluations to improve quality
           of care.




3
    The regulations that apply to Federal grants also apply to cooperative agreements.
4
 FOA Number CDC-RFA-PS09-9120 is entitled Centers for Disease Control and Prevention, Support for the
National Government Monitoring and Evaluation System, Surveillance and Laboratory Infrastructure and Pediatric
and Adult HIV Care and Support in the Republic of Zambia under the President's Emergency Plan for AIDS Relief
(PEPFAR).
5
  Tertiary healthcare is specialized consultative care, usually on referral from primary or secondary medical care
personnel, by specialists working in a center that has personnel and facilities for special investigation and treatment.
(Secondary medical care is the medical care provided by a physician who acts as a consultant at the request of the
primary physician.) Johns Hopkins Medicine, “Tertiary Care Definition.” Available online at
http://www.hopkinsmedicine.org/patient_care/pay_bill/insurance_footnotes.html. Accessed on November 18, 2013.
6
 U.S. Government investment in capacity building through PEPFAR seeks to assist host governments’ efforts to
know their epidemics and respond strategically to prevent new infections, care for and treat infected and affected
populations, and mitigate the social and economic consequences.
7
  The collection of strategic information serves multiple purposes: (1) to assist host country governments to plan,
monitor, and manage a coordinated national response to the HIV/AIDS epidemic and (2) to assist PEPFAR country
teams to plan, monitor, and manage U.S. Government HIV/AIDS activities in support of the national plan.

8
  Sentinel surveillance provides an alternative to population-based surveillance for the collection and analysis of
individual patient-related information and more limited monitoring of antimicrobial resistance trends. It offers
greater design flexibility with the participation requirements of various network partners. Findings from sentinel
surveillance data collection are useful for documenting trends but are not population based.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                                     2
HOW WE CONDUCTED THIS REVIEW

Our audit covered the budget period from September 30, 2010, through September 29, 2011.
This budget period was the second year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Hospital $4,938,673.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology, and Appendix C contains
Federal requirements.

                                                   FINDINGS

The Hospital generally managed PEPFAR funds and met program goals in accordance with
award requirements. With respect to financial management, specifically financial transaction
testing, $1,054,011 of $1,067,565 reviewed was allowable, but $13,554 was potentially
unallowable because the Hospital paid value-added taxes (VAT) 9 on purchases.

In addition, regarding financial management, the Hospital did not always follow its policies and
procedures. For 11 of the 39 financial transactions tested:

      •    5 transactions totaling $661,414 were paid without approved payment vouchers and

      •    6 transactions totaling $61,356 were recorded to the incorrect expense account in the
           general ledger.

Our program management review showed that the Hospital did not submit an annual progress
report 10 to CDC as required by Federal regulations and the Notice of Award (NOA). The
Hospital did, however, submit an annual program results report covering October 1, 2010,
through September 30, 2011, that reported on selected PEPFAR activities as required by the
Office of the U.S. Global AIDS Coordinator (OGAC). 11 However, the program results report
did not show progress on 8 of the Hospital’s 21 goals included in its approved cooperative
agreement. Furthermore, of the 13 goals on which the Hospital reported, 5 were supported by
documentation, but 8 were only partially supported.

9
    VAT is a form of consumption tax.
10
  Recipients are required to submit annual progress reports that should contain, for each grant or cooperative
agreement, a comparison of actual accomplishments to objectives established for the period.
11
  The annual program results report covers selected PEPFAR activities as required by OGAC. OGAC is part of the
Department of State. It manages and coordinates U.S. Government-supported HIV/AIDS programs in developing
countries. As part of its management activities, OGAC requires CDC and other U.S. agencies to submit the annual
program results report for selected PEPFAR activities, which the PEPFAR Country Coordinator combines and
submits to OGAC.


Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                               3
These errors occurred because the Hospital did not have adequate policies and procedures.

FINANCIAL MANAGEMENT

Expenditures for Value-Added Tax Are Potentially Unallowable

The HHS Grants Policy Statement (GPS) (section II-114) states that certain costs, including
VAT, are unallowable under both foreign grants and domestic grants with foreign components.
Also, bilateral agreements with foreign governments may stipulate an exemption from paying the
VAT for those contractors and grantees that are funded by the United States and providing
foreign aid. 12

For 8 of the 39 financial transactions tested, the Hospital used $13,554 of PEPFAR funds to pay
the VAT, a potentially unallowable cost for this cooperative agreement. The eight financial
transactions included VAT for publication and printing, insurance and indemnification,
maintenance and repair, communication, meetings and conferences, training, and medical
equipment. The VAT on these transactions was also included as part of total expenditures on the
financial status report (FSR).

The Hospital stated that it did not keep a record of VAT charged to its cooperative agreement
and that it had not applied to the Zambian government for exemption status or a refund of all the
VAT expenditures previously disbursed.

Financial Transactions Were Not Always Approved or Recorded Accurately

Recipients’ financial management systems must provide for “[e]ffective control over and
accountability for all funds, property and other assets.” Recipients must “adequately safeguard
all such assets and assure they are used solely for authorized purposes” (45 CFR § 74.21(b)(3)).
In addition, accounting records must be supported by source documentation (45 CFR
§ 74.21(b)(7)). The Hospital’s policies and procedures required that a payment voucher with
authorizing signatures be submitted with the invoice for reimbursements of purchases.

For the 39 transactions totaling $1,067,564 that we reviewed, we identified internal control
weaknesses for 11 transactions tested totaling $722,770. For these 11 transactions, the Hospital
did not follow its policies and procedures. (See the table below.)

                                     Table: Financial Transactions

                                                            Sample
                             Category                     Transactions               Total
                No payment voucher                                5                  $661,414
                Incorrect expense accounts                        6                    61,356

                   Total                                         11                  $722,770


12
  HHS is reexamining the applicability of the GPS provision; thus, we are not recommending a disallowance.
Instead, we recommend that the Hospital work with CDC to resolve the issue.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                           4
For five sample transactions, the Hospital was unable to provide payment vouchers for medical
equipment, supplies, health and welfare, training, and other expenses. Although the Hospital
was able to provide supporting documentation for the expenses, it could not provide the payment
vouchers, which should have included authorizing signatures approving payment for the
expenses. For six sample transactions, the Hospital recorded the transactions to incorrect
expense accounts in the general ledger.

By not obtaining authorizing signatures or recording transactions properly, the Hospital did not
ensure that the funds were spent in accordance with award requirements.

PROGRAM MANAGEMENT

Hospital Did Not Submit Annual Progress Report to CDC

Recipients are required to submit annual progress reports, unless the awarding agency requires
quarterly or semiannual reports. Annual reports are due 90 days after the end of the grant year
(45 CFR § 74.51(b)).
Progress reports should contain a comparison of actual accomplishments to the objectives
established for the period (45 CFR § 74.51(d)(1)). Also, progress reports should contain the
reasons that any established objectives were not met and additional “pertinent information,
including, when appropriate, analysis and explanation of cost overruns or high unit costs”
(45 CFR § 74.51(d)(2)-(3)).

Recipients are required to retain financial records, supporting documents, and all other records
pertinent to the grant agreement for 3 years from the submission date of the final expenditure
report for the funding period (45 CFR § 74.53(b)).

The Hospital did not submit an annual progress report to CDC as required by Federal regulations
and the NOA. However, the Hospital did submit a program results report for the period
October 1, 2010, through September 30, 2011, that reported on selected PEPFAR activities as
required by OGAC. OGAC requires CDC and other U.S. agencies to submit the annual program
results for selected PEPFAR activities, which the PEPFAR Country Coordinator combines and
submits to OGAC.

The Hospital said that it did not submit an annual progress report because it had interpreted an
email from CDC to mean that it only had to submit the program results report. Without annual
progress reports, CDC could not determine whether the Hospital met program goals in
accordance with award requirements.

Some Cooperative Agreement Goals Not Reported or Partially Supported

The Hospital’s cooperative agreement contained 21 goals, only 13 of which the Hospital reported
in the program results report. Of the 13 goals reported, 5 were supported, and 8 were only
partially supported.

For the eight partially supported goals, the Hospital could not provide support for the number of
services provided or evidence that the service was rendered. Examples of activities that were
partially supported included testing, counseling, antiretroviral treatment, and training.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                  5
The Hospital was unable to provide documentation supporting all of the numbers of services
provided that it had included in its program results report because the electronic databases that it
used to keep track of some of these numbers showed only current counts. The Hospital could not
provide support for historical numbers in the program results report.

Also, the Hospital did not report results on eight goals because OGAC did not require the
program results report to include progress on all of the cooperative agreement goals. OGAC
selected the activities for the report to demonstrate progress in the fight against HIV/AIDS, not
to demonstrate progress on all of the goals in the cooperative agreement.

INADEQUATE POLICIES AND PROCEDURES

Although the Hospital had formal policies and procedures in place for the cooperative
agreement, they were not adequate to ensure that it:

       •    recorded and approved payments for PEPFAR expenditures accurately,

       •    submitted accurate and adequately supported annual progress reports in a timely manner
            as required by Federal regulations and the NOA, and

       •    maintained backups of electronic databases used to calculate and track quantitative
            amounts to support “point-in-time” 13 progress reported.

                                              RECOMMENDATIONS

We recommend that the Hospital:

       •    work with CDC to resolve whether the $13,554 of VAT was an allowable expenditure
            under the cooperative agreement;

       •    work with the Zambian government for VAT exemption and refund of VAT
            disbursements; and

       •    enhance its internal controls by updating its policies and procedures to include detailed
            steps to account for and report PEPFAR funds, not limited to but including;

                o recording and approving payments for PEPFAR expenditures;

                o submitting annual progress reports, in addition to the annual program results
                  reports, in a timely manner;

                o maintaining adequate supporting documentation for goals reported in the annual
                  progress report; and

                o maintaining backups of electronic databases used to calculate and track
                  quantitative amounts to support “point-in-time” progress reported.

13
     Point-in-time is a snapshot of data taken at a specific time.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                      6
UNIVERSITY TEACHING HOSPITAL COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

University Teaching Hospital Comments

In comments on our draft report, Hospital officials generally concurred with our
recommendations. Also, the Hospital described the actions they had taken to address them, such
as processing all VAT rated purchases through CDC until the Hospital obtains its own exemption
status and updating its standard operating procedures and controls.

In response to our recommendation to work with CDC to resolve whether the $13,554 of VAT
was an allowable expenditure, Hospital officials said that they had repaid the $13,554 subsequent
to our fieldwork. The officials said that in August 2013, OGAC imposed a penalty on the
Hospital for paying VAT expenses with PEPFAR funds and reduced its funds by 200 percent of
the cooperative agreement’s year 5 funding, which included the $13,554.

The Hospital’s comments, except for the additional documentation provided, are included as
Appendix D.

Office of Inspector General Response

After reviewing the Hospital’s additional documentation, we were unable to verify that the
$13,554 of VAT was included in an FY 2013 reduction of awarded funds and repaid to the U.S.
Treasury Department. Therefore, we continue to recommend that the Hospital work with CDC to
resolve this issue.




Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                              7
              APPENDIX A: OFFICE OF INSPECTOR GENERAL REPORTS

  AUDITS OF THE PRESIDENT’S EMERGENCY PLAN FOR AIDS RELIEF FUNDS

                         Report Title                                Report Number   Date Issued
   Aurum Institute for Health Research Did Not Always                A-05-12-00021   8/23/2013
   Manage President’s Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements
   The South African National Department of Health Did               A-05-12-00022   8/23/2013
   Not Always Manage President’s Emergency Plan for
   AIDS Relief Funds or Meet Program Goals in
   Accordance With Award Requirements
   National Health Laboratory Service Did Not Always                 A-05-12-00024   8/15/2013
   Manage President's Emergency Plan for AIDS Relief
   Funds or Meet Program Goals in Accordance With
   Award Requirements
   The Southern African Catholic Bishops’ Conference                 A-05-12-00023   7/23/2013
   AIDS Office Generally Managed President’s
   Emergency Plan for AIDS Relief Funds and Met
   Program Goals in Accordance With Award
   Requirements
   The Centers for Disease Control and Prevention’s                  A-04-12-04023   4/22/2013
   Vietnam Office Generally Monitored Recipients’ Use of
   the President's Emergency Plan for AIDS Relief Funds
   Potentia Namibia Recruitment Consultancy Generally                A-06-11-00056   4/19/2013
   Managed the President’s Emergency Plan for AIDS
   Relief Funds and Met Program Goals in Accordance
   With Award Requirements
   The Centers for Disease Control and Prevention’s                  A-04-12-04022   2/12/2013
   South Africa Office Did Not Always Properly Monitor
   Recipients’ Use of the President's Emergency Plan for
   AIDS Relief Funds
   The Republic of Namibia, Ministry of Health and Social            A-04-12-04019   1/14/2013
   Services, Did Not Always Manage the President’s
   Emergency Plan for AIDS Relief Funds or Meet
   Program Goals in Accordance With Award
   Requirements
   The Centers for Disease Control and Prevention’s                  A-04-12-04020   11/19/2012
   Namibia Office Did Not Always Properly Monitor
   Recipients’ Use of the President's Emergency Plan for
   AIDS Relief Funds
   Review of the Centers for Disease Control and                     A-04-10-04006    6/15/2011
   Prevention’s Oversight of the President’s Emergency
   Plan for AIDS Relief Funds for Fiscal Years 2007
   Through 2009



Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                 8
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the budget period from September 30, 2010, through September 29, 2011.
This budget period was the second year of a 5-year cooperative agreement. During the budget
period under review, CDC awarded the Hospital $4,938,673.

We limited our review of internal controls to those related to our objective. We conducted
fieldwork at the Hospital’s offices in Lusaka, Zambia, from January through February 2013.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
         the Hospital’s policies and procedures;

     •   interviewed and conducted meetings with CDC Zambia officials to determine the extent
         of the technical assistance they provided to the Hospital;

     •   interviewed and conducted meetings with Hospital officials to determine their processes
         and procedures related to financial accounting and reporting and program goals and
         accomplishments;

     •   reconciled the Hospital’s FSR 14 to its accounting records for the budget period under
         review;

     •   selected and reviewed a judgmental sample of 39 financial transactions with expenditures
         totaling $1,067,564 from the grant award of $4,938,673 and included expenditures such
         as:

             o bid proposal items over $10,000 for audit, maintenance, and equipment;

             o consulting and government fees;

             o accounts that were questioned in the fund accounting audit report, i.e. salaries,
               overtime, equipment and travel; and

             o other unusual transactions;

     •   identified the amount of VAT that the Hospital paid with PEPFAR funds;

     •   compared the accomplishments described in the Hospital’s program results report 15 to the
         cooperative agreement’s goals; and
14
  FSRs are due to the CDC Grants Management Office 90 days after the end of the budget period (45 CFR
§ 74.52(a)(1)(iv)). FSRs provide information to CDC on current expenditures and on carryover balances (if any). In
addition, these documents are considered in future funding decisions.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                              9
     •   reviewed supporting documentation for all of the goals reported in the Hospital’s annual
         program results report that related to the goals in the cooperative agreement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




15
  The Hospital did not submit an annual progress report as required by Federal regulations and the NOA. It did,
however, submit a program results report covering October 1, 2010, through September 30, 2011, that reported on
selected PEPFAR activities as required by OGAC.

Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                                                10
                         APPENDIX C: FEDERAL REQUIREMENTS

45 CFR § 74.21(b)(7)

        Recipients’ financial management systems shall provide for the following:
        Accounting records, including cost accounting records, that are supported by
        source documentation.

45 CFR § 74.21(b)(3)

        Recipients’ financial management systems shall provide for the following:
        Effective control over and accountability for all funds, property and other assets.
        Recipients shall adequately safeguard all such assets and assure they are used
        solely for authorized purposes.

45 CFR § 74.51(b)

        The HHS awarding agency will prescribe the frequency with which the
        performance reports shall be submitted. Except as provided in paragraph (f) of
        this section, performance reports will not be required more frequently than
        quarterly or, less frequently than annually. Annual reports shall be due 90
        calendar days after the award year; quarterly or semi-annual reports shall be due
        30 days after the reporting period. The HHS awarding agency may require annual
        reports before the anniversary dates of multiple year awards in lieu of these
        requirements. The final performance reports are due 90 calendar days after the
        expiration or termination of the award.
45 CFR § 74.51(d)(1)-(3)

        Performance reports shall generally contain, for each award, brief information on
        each of the following: (1) A comparison of actual accomplishments with the
        goals and objectives established for the period, the findings of the investigator, or
        both. Whenever appropriate and the output of programs or projects can be readily
        quantified, such quantitative data should be related to cost data for computation of
        unit costs. (2) Reasons why established goals were not met, if appropriate.
        (3) Other pertinent information including, when appropriate, analysis and
        explanation of cost overruns or high unit costs.

45 CFR § 74.52(a)(1)(iv)

        The following forms are used for obtaining financial information from recipients:
        (1) SF-269 or SF-269A, Financial Status Report. (iv) Recipients shall submit the
        SF-269 and SF-269A (an original and two copies) no later than 30 days after the
        end of each specified reporting period for quarterly and semi-annual reports, and
        90 calendar days for annual and final reports. Extensions of reporting due dates
        may be approved by the HHS awarding agency upon request of the recipient.




Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                              11
45 CFR § 74.53(b)

        Financial records, supporting documents, statistical records, and all other records
        pertinent to an award shall be retained for a period of three years from the date of
        submission of the final expenditure report or, for awards that are renewed
        quarterly or annually, from the date of the submission of the quarterly or annual
        financial report.

HHS Grants Policy Statement, Section II-114

        Customs and import duties. These costs, which include consular fees, customs
        surtax, value-added taxes, and other related charges, are unallowable under
        foreign grants and domestic grants with foreign components.




Audit of University Teaching Hospital PEPFAR Funds (A-04-13-04005)                             12
                 APPENDIX D: UNIVERSITY TEACHING HOSPITAL COMMENTS 





                                          REP-UBLIC OF ZAMBIA

                          MINISTitY OF HEALTH 

                 Universicyr rfeaching Hospital 

                                                                                                       P/Bag Rw 1)\
                                                                                                    Lusaka - Zambia
 Fax: +260 211 250305                                                            Tel: +260 211 253947 (Switch Board)
 e-mail: mduth@yahoo.com                                                              +260 211 251451
                       OFFICE OF THE SENIOR MEDICAL SUPERINTENDENT

Our Ref:
Your Ref:                                                                                    16th January 2014

   Gloria L. Jarmon
   Deputy Inspector General for Audit Services 

   Department of Health and Human Services 

   Office of the Inspector General 

   Washington DC, 20201 


   Dei~ Ms. Jarmon

        RE: RESPONSES TO OIG AUDIT QUERIES. REPORT NUMBER: A-04-13 -04005 .

  "The University Teaching Hospital Generally Managed the President's Emergency Plan
  for AIDS ReliefFunds and Met Program Goals in Accordance with Award
  Requirements" (A-04-13-04005)

  Attached are the University Teaching Hospital HIVI AIDS Program (UTH-HAP), Co­
  Agreement Number U2GPS001932, responses to audit queries raised in the Office of the
  Inspector General's (OlG) Audit Report number A-04-13-04005 dated December 2013
  carried out for the budget period September 30, 2010 through September 29, 2011.

  Yours sincerel1,i

        rv ~
  Dr. L. Kasonka
                                                                               Dr. Chipepo Kankasa 

  Senior Medical Superintendent 

                                                                               PI/Program Director


                                                                                       ...


        Audit of University Teaching Hospital PEPF.AR FLm:ds {A-04-13-04005)                              13
                             MINISTRY OF HEALTH
                   Y TEACHING HOSPITAL HIVAND AIDS PROGRAM (UTH-HAP)
                  DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH
                                   P.O BOX 50440
                               LUSAKA


                            University Teaching Hospital

                                     HIV/AIDS Program


                                        GRANTEE INFORMATION:


                                    Grant Number: U2GPS001932-02
                 Grantee Name: University Teaching Hospital HIV AIDS Program
                                               (UTH-HAP)


                              Centers for Disease Control and Prevention 

    Support for the National government Monitoring and Evaluation System, Surveillance and 

   laboratory Infrastructure, and Pediatric and Adult HIV Care and support in the Republic of 

             Zambia under the President's Emergency Plan for AIDS Relief (PEPFAR) 




                      Responses to OIG Audit Queries

    'The University Teaching Hospital Generally Managed the President's Emergency Plan for
     AIDS Relief Funds and Met Program Goals in Accordance with Award Requirements" (A­
                                        04-13-04005)




   Date of Submission: January 16, 2014




                        U"liversit y Teaching Hospital HIV end AIDS Progrcm (UTH-HAP)
             University Teaching Hospital, Department of Pediatrics end 01ild Health, Nationalist Road, 

                                       PO Box 50440, Ridgeway, Lusaka, Zcmbia 

                                       Tel. +260-1-257535-6 Fax:+260-1-257534 

Audit ofUniversity TeachingHospital PEPFAR Funds (A-04-13-04005)                                            14
                              MINISTRY OF HEALTH 

                 UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                    (UTH-HAP) 

                  DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                  P.O BOX 50440 

                                     LUSAKA 


       Findings:
   1. 	 The Hospital generally managed PEPFAR funds and met program goals in accordance
       with award requirements. With respect to financial management, specifically financial
       transaction testing, $1,054,011 of$1,067,565 reviewed was allowable, but$13,554 was
       potentially unallowable because the Hospital paid value-added taxes (VAT) on
       purchases.
   2. 	 In addition the Hospital did not always follow its policies and procedures. For 11 of the
        39 financial transactions tested:
           • 	 5 transactions totaling $661,414 were paid without approval payment vouchers
               and
           • 	 6 transactions totaling $61, 356 were recorded to the incorrect expense account
               in the general ledger.
   3. 	 The program management review showed that the Hospital did not submit an annual
        progress report to CDC as required by Federal regulations and the Notice of Award.
        The Hospital did, however, submit an annual program results report covering October
        1, 2010 through September 30, 2011, that reported on selected PEPFAR activities as
        required by the Office of the U.S. Global AIDS Coordinator (OGAC). However, the
        program results report did not show progress on 8 of the Hospitals 21 goals included in
        its approYed cooperative agreement.
   4. 	 Furthermore, of the 13 goals on which the Hospital reported, 5 were supported by
        documentation, but 8 were only partially supported.
   5. 	 These errors occurred because the Hospital did not have adequate policies and
        procedures.
   Recommendation:
   1. 	 Work with CDC to resolve whether the $13,554 of VAT was an allowable expenditure
       under the cooperative agreement.
       We cone ur that the VAT payments were not allowable however, in August 2013 OGAC
       imposed a penalty on all USG partners that had paid VAT expenses with PEPFAR funds.
       This was done through a reduction in awarded funds at 200% penalty of the VAT total
       payments in the YR05 funding allocation of which the$ 13,554 was included. Therefore
       payment to the US Treasury has been made (refer to Appendix).
       UTH-HAP now processes all VAT rated purchases for exemption through the 

       CDC/American Embassy, for issuance of a local purchase order. 

                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             Uliversity Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         1

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          15
                              MINISTRY OF HEALTH 

                 UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                    (UTH-HAP) 

                  DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                  P.O BOX 50440 

                                     LUSAKA 


   2. 	 Work with the Zambian government for VAT exemption and refund of VAT
        disbursement;
           • 	 The University Teaching Hospital HIV/AIDS Program (UTH-HAP) falls under the
               Ministry of Health (MOH) and abides by the Government of Republic of Zambia
               (GRZ) policies and guidelines. Under the GRZ VAT liability Guide, second
               schedule, Group 5- Medical Supplies, item b) explanatory notes, certain medical
               supplies are zero-rated while others are taxable. UTH-HAP processes all imported
               equipment, reagents and medical supplies through the Ministry of Health/Finance
               and these are zero-rated.
              The VAT liability Guide, second schedule, Group 2 under "supplies to privileged
              persons", item d), also gives zero-rating provision for goods or services supplied or
              imported under a technical aid program or project which are paid through donor
              funding. The VAT liability Guide explanatory notes for item d) states:
                   "Supplies under technical aid agreements are zero-rated only when the technical
                  aid agreement signed with the Republic of Zambia expressly provide the tax
                   relief Aid agencies or contractors ofthe donor should use a purchase order
                  system in order for the supplies made to them to be zero-rated. This enables the
                  donor or aid agency to provide the supplier of the goods with a purchase order
                   indicating the quantities, description and value ofthe goods and services. They
                  should also indicate that the goods or services are paid for using donor or aid
                  funds. Where the donor is not in a position to issue required purchase orders,
                  ZRA is available to issue".
              UTH-HAP will continue to follow CDC Zambia regulations to process payments
              through CDC until a time when the program obtains its own exemption status.
           • 	 Refund of VAT already remitted is not possible as the Zambia Revenue Authority
               stipulates that once paid, funds cannot be reclaimed. As already stated above,
               reimbursement to the U.S. Treasury Department was already made through the
               reduction in COP 13 funding.




                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             University Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         2

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          16
                               MINISTRY OF HEALTH 

                  UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                     (UTH-HAP) 

                   DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                   P.O BOX 50440 

                                      LUSAKA 


   3. 	 Enhance internal controls by updating policies and procedures to include detailed steps
        to account for and report PEPFAR funds not limited to but including:
              •   Recording and approving payments for PEPFAR expenditures'
                  We cone ur that during the period under review the policies and procedures were
                  lacking sufficient detail and were not being adequately enforced as highlighted by
                  the External auditors. UTH-HAP was already in the process of updating the
                  program's SOPsand internal controls and these have since been finalized in line
                  with the audit recommendations and being enforced. This is evidenced by the
                  latest external audit report dated August 2013 which stated:
                       "With respect to internal control, we did not identify any significant
                       deficiency. We found no instances of substantial non-compliance with
                       requirementsfor federal financial management systems, federal accounting
                       standards, or the US Standard General Ledger. UTH-HAP has taken
                       adequate corrective action on prior period report recommendations."
                  The challenges experienced during the period under audit that led to the queries
                  was mainly due to inadequate monitoring and enforcing of the programs SOPs,
                  financial procedures and policies, internal controls and compliance on the part of
                  the program Internal Auditor, whose abilities in this capacity were found
                  wanting. The program,on the 1st of November 2012, employed a new Internal
                  Auditor, a Chartered Certified Accountant (ACCA) who worksclosely with the
                  UTH-HAP PI/Director, Program Administrator and Management Accountants,to
                  ensure that the program performs in line with GRZ and CDC requirements for
                  PEPFAR funds.
                  In the financial audit queries raised above the following were the challenges
                  experienced:
                      i. 	   5 transactions totaling $661,414 were paid without approval payment
                             vouchers
                             We acknowledge that the UTH-HAP was unable to retrieve the specified
                             payment vouchers for the above mentioned transactions. However, a
                             concerted effort was made to reconstruct the files and evidence of
                             purchase was available for the full amount of$661,414 including bank
                             statements proof of transfer of funds, receipts, and a physical inventory
                             of the equipment was done during the audit and all items were verified
                             and accounted for by the OIG auditors.

                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             Uliversity Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         3

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          17
                              MINISTRY OF HEALTH 

                 UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                    (UTH-HAP) 

                  DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                  P.O BOX 50440 

                                     LUSAKA 


                            UTH-HAP has Accounting and Procurement Procedures in place
                            following GRZ and HHS/CDC guidelines for recording and approving
                            payments for PEPFAR funds. All checks and bank transfers are prepared
                            based on approved GRZ payment vouchers.A number of factors are
                            likely to have played a role in the misplacement of the payment
                            vouchers:
                                 1) 	 During this period, the Pediatric HIV/AIDS Centre of Excellence
                                      (PCOE), which houses the secretariat for UTH-HAP, moved from
                                      its temporary accommodation in the refurbished containers and
                                      several other locations around the University Teaching Hospital
                                      (UTH), to the new PCOE building within UTH. It is conceivable
                                      that the file containing the aforementioned vouchers (the 5
                                      transactions are a series of purchases made at the same time) was
                                      misplaced.
                                2) 	 The program uses a UTH appointed clearing agent and all
                                     relevant documentation is supplied to him for clearing purposes.
                                     It is possible that through the movement of files, such as through
                                     the Ministry of Finance, the documentation may not have been
                                     returned to UTH-HAP. As stated above, the Internal Auditor at
                                     the time failed to ensure that all the relevant documentation was
                                     appropriately accounted for and filed.
                     ii. 	 6 transactions totaling $61, 356 were recorded to the incorrect
                           expense account in the general ledger.
                            We partially concur with the OIG findings. One of six transactions
                            equating to $5,477.77 was posted to the correct account, "Other Direct
                            Costs" (refer to Appendix).
                                 1. 	 According to the HHS/CDC budget guidelines, payment of non­
                                      Co-Ag salaried personnel falls under the "Other Direct" budget
                                      cost category: Overtime is paid to UTH staff who work for UTH­
                                      HAP when off duty. They fill-in "overtime forms" that are
                                      countersigned by the ward/lab in-charge highlighting shifts done.
                                      They are paid according to approved UTH overtime rates.
                                      However, we concur that the transaction was erroneously posted
                                      as "Training" instead of "Overtime".


                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             University Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         4

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          18
                              MINISTRY OF HEALTH 

                 UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                    (UTH-HAP) 

                  DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                  P.O BOX 50440 

                                     LUSAKA 


                            We concur, however, that five out of six transactions equating to US
                            $55,603 were erroneously recorded. The possible reason for this could be
                            that during the period under audit, UTH-HAP was migrating from the old
                            excel based accounting system to a new electronic accounting software
                            package (QuickBooks) as per recommendation of the USG approved
                            External Auditors following the YRO1 financial audit of the program.
                            The Internal Auditor was mandated to oversee this migration in which
                            each budget line was coded. It was noted that:
                                 1. 	 Travel for people that do not appear within the "salary" budget
                                     cost category should be placed in the "Others Direct Costs" (i.e.
                                     hired research personnel under HVSI $6,099.84) and not under
                                     travel.
                                2. 	 Foreign travel was posted under Maintenance and Repair costs
                                     ($12,118.40)
                                3. 	 Some lab reagents were posted under" Employee Morale, health
                                     and welfare expense" ($6,861.10), instead of under supplies.
                                4. 	 Another Foreign travel ($6,958.00) was classified as "fuel" under
                                     "Other Costs category".
                                5. 	 Other lab reagents ($23,565.73) were posted to "Others Costs
                                     Category" sub-code Cleaning and security costs instead of under
                                     supplies
                           To overcome these errors, every letter of request is now appropriately
                           coded, and posting of disbursements is done by the Co-Ag management
                           accountant who understands the budgets well. We have remarkably
                           improved our internal controls as evidenced by the YR03 External
                           Auditors Report.

              • 	 Submitting annual progress reports, in addition to the annual program
                  results reports, in a timely manner;
                  In YR02, the program completedthe Office of the U.S. Global AIDS
                  Coordinator(OGAC)report and submitted to both OGAC and CDC. This was due
                  to the fact that CDC Zambia informed partners that it was acceptable to submit
                  the OGAC report as the CDC Annual Reporting requirement.



                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             Uliversity Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         5

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          19
                               MINISTRY OF HEALTH 

                  UNIVERSITY TEACHING HOSPITAL HIVI AIDS PROGRAM 

                                     (UTH-HAP) 

                   DEPARTMENT OF PAEDIATRICS AND CHILD HEALTH 

                                   P.O BOX 50440 

                                      LUSAKA 


                  At the time under review CDC/Zambia PGO were accepting the OGAC annual
                  petformance report for the CDC annual reporting requirement. As stated we now
                  complete two separate reports and submit to the respective agencies.
                  Of note: UTH-HAP had timely submitted separate annual progressive reports for
                  YROl and subsequently for YR03 & YR04 as per SOPs.

              •   Maintaining adequate support documentation for goals reported in the
                  annual progress report;
                  UTH is a tertiary-level hospital and the largest hospital in Zambia with patients
                  being referred from all over the country. Client information is recorded in ward
                  registers and individual paper files, from where it is collected and stored
                  electronically. Clients referred back to their nearest health facility, which can be
                  hundreds of miles from Lusaka, take their paper files with them. This movement
                  of files presents a major challenge in maintaining hard copies of patient
                  information at UTH. A recommendation following the audit was made that
                  photocopies can be made of all files for clients being transferred out. This raises
                  the question of feasibility. UTH sees thousands of clients monthly many with
                  bulky patient files. The program will need resources including a dedicated copier,
                  stationery supplies and personnel to continually run the copies, storage, and so
                  on.
                  Solution: The program is slated in 2014 to become active on the electronic
                  Smartcare patient tracking system introduced country-wide which is a more
                  viable option for tracking patient files as well as data collection and analysis.
              •   Maintaining backups of electronic databases used to calculate and track
                  quantitative amounts to support "point of time" progress reported.
                  We concur with the OIG findings: The program has since implemented a system
                  of taking a point-of-time snapshot of data at each time of reporting.




                          University Teaching Hospital HIV/AIDS Progrcm (UlH-HAP)
             Uliversity Teaching Hospital, Deparbnent of Paediatrics and Olild Health, Nationalist Road,
                                     PO Box 50440, Ridgeway, Lusaka, Zcmbia
                                      Tel. +260-1-257535-6 Fax:+260-1-257534
                                                         6

Audit ofUniversity Teaching Hospital PEPFAR Funds (A-04-13-04005)                                          20
